App'x A

United States v. Chacon-Lara
United States Court of Appeals for the Fifth Circuit
May 26, 2020, Filed
No. 19-40072
Reporter
806 Fed. Appx. 322 *; 2020 U.S. App. LEXIS 17043 **
UNITED STATES OF AMERICA, PlaintiffAppellee v. MANUEL CHACON-LARA,
Defendant-Appellant

Appellee: Carmen Castillo Mitchell, Assistant U.S.
Attorney, U.S. Attorney's Office, Houston, TX.
Manuel Chacon-Lara, Defendant - Appellant, Pro
se, Post, TX.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1 Judges: Before DENNIS, ELROD, and DUNCAN,
GOVERNING
THE
CITATION
TO Circuit Judges.
UNPUBLISHED OPINIONS.

Opinion
Prior History: [**1] Appeal from the United
States District Court for the Southern District of [*323] PER CURIAM:*
Louisiana. USDC No. 7:18-CV-31, USDC No.
Manuel Chacon-Lara, federal prisoner # 191987:14-CR-1871 -1.
198, moves for a certificate of appealability (COA)
United States v. Chacon-Lara, 690 Fed. Appx. 166, to appeal the denial of his 28 U.S.C. § 2255 motion
2017 U.S. App. LEXIS 9612 (5th Cir. Tex., May
challenging his sentence for possession with intent
31,2017)
to distribute methamphetamine. In his § 2255
motion, Chacon-Lara claimed that counsel rendered
ineffective assistance by failing to request a "fast
track" sentencing reduction.
Disposition: COA DENIED; AFFIRMED.

Core Terms
ineffective, sentence, movant

Counsel: For United States of America, Plaintiff -

To obtain a COA, a movant must make "a
substantial showing of the denial of a constitutional
right." 28 U.S.C. § 2253(c)(2). When the district
court has denied the claims on the merits, "[t]he
[movant] must demonstrate that reasonable jurists
would find the district court's assessment of the

* Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

Page 2 of 2
806 Fed. Appx. 322, *323; 2020 U.S. App. LEXIS 17043, **1

constitutional claims debatable or wrong" or that
"the issues presented were adequate to deserve
encouragement to proceed further." Slack v.
McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146
L. Ed. 2d 542 (2000) (internal quotation marks and
citation [**2] omitted). Chacon-Lara has not met
this standard with respect to his ineffective
assistance claim and has therefore not shown an
entitlement to a COA.
We construe his motion for a COA with respect to
the district court's denial of an evidentiary hearing
as a direct appeal of that issue, see Norman v.
Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and
affirm.
COA DENIED; AFFIRMED.
End of Document

I

Case 7:14-cr-01871 Document 86 Filed in TXSD on 12/11/18 Page 1 of 1
United States District Court
Southern District of Texas

App'x B

ENTERED

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
MCALLEN DIVISION
MANUEL CHACON-LARA

)
)
)
)

VS.

I

December 13, 2018
David J. Bradley, Clerk

CIVIL ACTION NUMBER
M-18-031
CRIMINAL NUMBER
M-14-1871

UNITED STATES OF AMERICA

ORDER OF DISMISSAL
The Court, having adopted the conclusions in the Report and
Recommendation of United States Magistrate Judge Juan F. Alanis in
Order of even date herewith, is of the opinion that Respondent's
Motion to Dismiss should be granted and this cause of action should
be dismissed.
It is, therefore, ORDERED, ADJUDGED and DECREED that Movant's
Motion to vacate,

set aside, or correct sentence pursuant to 28

U.S.C. § 2255 is DENIED, and that this cause of action is hereby
DISMISSED.
The Court further ORDERS that no Certificate of Appealability
be issued.
The Clerk shall send a copy of this Order to Movant and
counsel for Respondent.
DONE on this

ni

day of

, 20j|, at McAllen, Texas.

Ricardo H. Hinojosa
UNITED STATES DISTRICT JUDGE

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 1 of 9
United States District Court
Southern District of Texas

App'x C

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MCALLEN DIVISION
MANUEL CHACON-LARA
Movant,

David J. Bradley, Clerk

§
§•

§
VS.

November 16, 2018

CIV. NO. 7:18-cv-00031

§

§
UNITED STATES OF AMERICA
Respondent.

CRIM. NO. 7:14-cr-01871

§
§

REPORT & RECOMMENDATION
Movant, Mr. Manuel Chacon-Lara, a federal prisoner proceeding pro se, initiated this
action by filing a motion to vacate, set aside, or correct sentence pursuant to 28 U.S.C. § 2255.
(Civ. Dkt. No. 1.) This case was referred to the undersigned magistrate judge for report and
recommendation pursuant to 28 U.S.C. § 636(b). On October 12, 2018, Respondent filed an
r

answer to Movant’s motion. (Civ. Dkt. No. 12.) This case is ripe for disposition on the record.
Movant claims only that his attorney rendered ineffective assistance of counsel by failing
( “to request a fast track sentence mitigation in light [of] Chacon’s eventual deportation to Mexico
I

after the completion of his sentence.” (Civ. Dkt. No. 1 at 4.)
As will be discussed further below, Movant’s claim is without merit. In the Southern
District of Texas, fast-track programs are only authorized to be used for felony illegal reentry
offenses and transportation or harboring of alien cases. Movant pleaded guilty to a drug offense,
which is not authorized to receive the benefits of a fast-track program. Therefore, any purported
failure by Movant’s attorney to argue for a fast-track program could not have prejudiced the
Movant and resulted in ineffective assistance of counsel.

1

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 2 of 9

After a careful review of the record and relevant law, the undersigned recommends that
Respondent’s Motion to Dismiss (Civ. Dkt. No. 12) be GRANTED and Movant’s § 2255 motion
(Civ. Dkt. No. 1) be DENIED. It is further recommended that Movant’s § 2255 motion (Civ.
Dkt. No. 1) be DISMISSED with prejudice, and the case be closed. Finally, it is recommended
that that the District Court DECLINE to issue a certificate of appealability in this mattier.
BACKGROUND AND PROCEDURAL HISTORY
On September 1, 2015, Movant was charged by a grand jury with a two-count indictment
for conspiracy to possess with intent to distribute a controlled substance and possession with intent
to distribute a controlled substance. (Crim. Dkt. No. 14.) Movant pleaded guilty to the second
count, possession with intent to distribute 500 grams or more of methamphetamine, oh March 2,
2015 in accordance with a written plea agreement. (Crim. Dkt. No. 381; Crim. Dkt. No. 23.)
On November 24,2015, the Honorable U.S. District Judge Ricardo H. Hinojosa sentenced
Movant to 108 months’ confinement and imposed no term of supervised release. (Crim. Dkt. No.
35.) Movant filed a notice of appeal on December 4, 2015. (Crim. Dkt. No. 36.) The Fifth
Circuit affirmed the sentence on May 31, 2017. (Crim. Dkt. No. 65.) Movant filed! a petition
for certiorari, which was subsequently denied on October 10, 2017. (Crim. Dkt. No. 70.) The
conviction thus became final on October 10,2017. See United States v. Wheaten, 826, F.3d 843,
846 (5th Cir. 2016) (stating that a conviction becomes final when the Supreme Court denies a
petition for a writ of certiorari) (quoting Clay v. United States, 537 U.S. 522, 527 (2003)).
Movant filed his § 2255 motion on January 29, 2018, well within the one-year; statute of
limitation imposed by § 2255(f)(1). (Civ. Dkt. No. 1.)

1 Crim. Dkt. No. 38 is the Judgment in Movant’s criminal case. The Judgment currently states Movant’s offense as
“[pjossession, with intent to distribute, 500 kilograms or more, that is approximately 2 kilograms of
methamphetamine.” (Crim. Dkt. No. 3 8 (emphasis added)). The undersigned finds that the emphasized “kilograms”
is a clerical mistake and should instead be “grams” as read on the indictment. (Crim. Dkt. No. 14.)

2

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 3 of 9

SUMMARY OF THE PLEADINGS
Pending before the Court is Movant’s § 2255 motion (Civ. Dkt. No. 1) where Movant
claims a single ground for relief by alleging ineffective assistance of counsel. (Civ. Dkt. No. 1
at 4.) Movant claims his attorney rendered ineffective assistance for not seeking application of a
fast-track sentencing program. (Id.)
In response, Respondent argues that Movant’s counsel could not have rendered ineffective
assistance in regard to the motion for a fast-track program because “there is no ‘Fast-Track’
program available for the narcotics crimes of which [Movant] was convicted.” (Civ. Dkt. No. 12
at 4.) Therefore, Movant could not have been prejudiced by his counsel’s representation. (Id.)
APPLICABLE LAW & ANALYSTS
i

I.

28 U.S.C. § 2255

To obtain collateral relief pursuant to 28 U.S.C. § 2255, a movant “must clear a
significantly higher hurdle” than the plain error standard that would apply on direct appeal.
i

United States v. Frady, 456 U.S. 152, 166 (1982). “Following a conviction and exhaustion or
waiver of the right to direct appeal, [courts] presume a defendant stands fairly and finally
convicted.” United States v. Cervantes, 132 F.3d 1106,1109 (5th Cir. 1998) (citing United States
v. Shaid, 937 F.2d 228,231-32 (5th Cir. 1991)).
With this in mind, there are four limited grounds upon which a federal prisoner may move
to vacate, set aside, or correct his sentence: (1) constitutional issues; (2) challenges to the District
Court’s jurisdiction to impose the sentence; (3) challenges to the length of a sentence in excess of
i

•

the statutory maximum; and (4) claims that the sentence is otherwise subject to collateral attack.
28 U.S.C. § 2255(a); United States v. Placente, 81 F.3d 555, 558 (5th Cir. 1996).

3

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 4 of 9

A movant must show both cause for his procedural default and actual prejudice resulting
from the error “[w]hen raising these issues of jurisdictional or constitutional magnitude for the
first time on collateral review.” Arnold v. United States, 2013 WL 12227401, at *3 (S.D. Tex.
July 11, 2013) (citing United States v. Cervantes, 132 F.3d 1106, 1109 (5th Cir. 199.8)). “This
cause and actual prejudice standard presents a significantly higher hurdle than the jplain error
standard [applied] on direct appeal” as noted above. Id. (citing United States v. Pierce, 959 F.2d
1297,1301 (5th Cir. 1992)).
H.

Ineffective Assistance of Counsel

Movant claims that he was denied effective assistance of counsel. Ineffective assistance
claims are properly made in a § 2255 motion because they raise an issue of constitutional
magnitude and generally cannot be raised on direct appeal. Claims of ineffective assistance of
counsel are analyzed under the two-prong test set forth in Strickland v. Washington, 466 U.S. 668
(1984). To satisfy the burden established in Strickland, Movant would have to show (1) that his
attorney’s performance was deficient and (2) that the deficient performance prejudiced his defense.
Id. at 678.
The first prong requires a movant to show that the alleged errors of counsel were so serious
that the assistance received was “below the constitutional minimum guaranteed by the Sixth
Amendment.” United States v. Faubion, 19 F.3d 226,228 (5th Cir. 1994) (citing Strickland, 466
U.S. at 686). In that regard, the “constitutional minimum is measured against an objective
standard of reasonableness.” Id. (citing Strickland, 466 U.S. at 688). In reviewing these claims,
“judicial scrutiny of counsel’s performance must be highly deferential,” and every effort must be
made to eliminate “the distorting effects of hindsight.” Strickland, 466 U.S. at 689.

An

ineffective assistance claim focuses on “counsel’s challenged conduct on the facts of the particular

4

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 5 of 9

case, viewed as of the time of counsel’s conduct,” because “[i]t is all too tempting for a defendant
to second-guess counsel’s assistance after conviction or adverse sentence.” Id. at 689-90.
The second prong requires that a movant “must demonstrate that her counsel’s performance
so prejudiced her defense that the proceeding was fundamentally unfair.” Faubion, 19 F.3d at
228 (citing Strickland, 466 U.S. at 688). This test requires that the movant show that, but for
counsel’s errors, the result would have been different. Id. (citing United States v. Kinsey, 917
F.2d 181, 183 (5th Cir. 1990)). A movant, in particular, must show that “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id. at 694.
It should be noted that if a movant fails to prove one prong, it is not necessary to analyze
the other. Armstead v. Scott, 37 F.3d 202, 210 (5th Cir. 1994) (“A court need not address both
components of the inquiry if the defendant makes an insufficient showing on one.”). : “Failure to
prove either deficient performance or actual prejudice is fatal to an ineffective assistance claim.”
Carter v. Johnson, 131 F.3d 452,463 (5th Cir. 1997) (citing Strickland, 466 U.S. at 687).
III.

Fast-Track Sentence Program

Movant claims that counsel rendered ineffective assistance by failing to request application
of a fast-track sentencing program. (Civ. Dkt. No. 1 at 4.) The Fifth Circuit has noted that “fasttrack programs originated in the Southern District of California and later spread to other districts
along the southwest border” where “[t]he United States Attorneys . . . created ... programs that
offered defendants who violated 8 U.S.C. § 1326 an array of options, such as plea agreements and
recommendations for reduced sentences, in return for the defendants’ waiver of various rights,
including: indictment by a grand jury, trial by jury, presentation of a pre-sentence report, and
appellate review of the sentence.” United States v. Gomez-Herrera, 523 F.3d 554, 559 (5th Cir.

5

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 6 of 9

2008). Section 5K3.1 of the United States Sentencing Guidelines provides for a reduction of a
defendant’s offense level based on his participation in an early disposition (or fast-track) program,
stating that “/u]pon motion of the Government, the court may depart downward not more than 4
levels pursuant to an early disposition program authorized by the Attorney General of the United
States and the United States Attorney for the district in which the court resides.” U.S.S.G § 5K3.1.
Whether a fast-track program is offered to a particular defendant is left entirely to the prosecutor’s
discretion. Gomez-Herrera, 523 F.3d at 561. “Even in a fast track jurisdiction, a defendant is
not automatically entitled to the benefits of the program.” Id.
Beyond the discretion to use the program, the Department of Justice has promulgated
requirements for the fast-track program that limit or deny eligibility to certain defendants.
Department Policy on Early Disposition or “Fast-Track” Programs, U.S. Department of Justice
(Jan. 31, 2012), https://www.justice.gov/sites/default/files/dag/legacy/2012/01/31/fast-trackprogram.pdf. United States attorneys are directed to use prosecutorial discretion to “limit or deny
a defendant’s participation in a fast-track program based on . . . [t]he defendant’s prior violent
felony convictions (including murder, kidnapping, voluntary manslaughter, forcible sex offense,
child-sex offenses, drug trafficking, firearms offenses, or convictions which otherwise reflect a
history of serious violent crime) [and] [t]he defendant’s number of prior deportations.” Id.
I

Fast-track programs are also limited to defendants who have been convicted of certain
crimes. In the Southern District of Texas, only those individuals convicted of felony illegal
reentry offenses and transportation or harboring of alien cases are eligible for the fast-track
program. (Civ. Dkt. No. 12, Attach. 1, at 23; Attach. 2, at 26; Attach. 3, at 29; and Attach. 4, at
32.)2 This is unlike other jurisdictions such as the District of Arizona and Southern District of

2 The Government attachments are Memorandums from the Deputy Attorney General setting forth the fast-track
policy. The first one pertains to authorization of the fast-track program for those individuals charged with illegal re-

6

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 7 of 9

California that have been given authorization from the Deputy Attorney General to utilize a fasttrack program for those individuals convicted of drug trafficking crimes “arising along the border”
and the District of New Mexico that have been given authorization for “drug backpacking cases.”
(Civ. Dkt. No. 12, Attach. 2, at 26; Attach. 3, at 29; and Attach. 4, at 32-33.)
Movant pleaded guilty to possession with intent to distribute 500 grams.or more of
methamphetamine in March 2015. (Crim. Dkt. No. 38.) Movant was not convicted of a crime
that was authorized to receive the benefits of a fast-track sentence in the Southern District of Texas.
{See Civ. Dkt. No. 12, Attachment 3, at 29-30, dated May 1, 2014 and pertaining to authorization
for the program for various Districts in regard to non-§ 1326 offenses.) Such a decision can.only
be authorized and moved for by the Government under the Guidelines. A review of the plea
agreement reflects that it was not authorized for the Movant. (Crim. Dkt. No. 23; see also GomezHerrera, 523 F.3d at 561 (“Fast track disposition is generally commenced by an offer from the
government to enter into a plea agreement.”))
Therefore, the alleged failure of Movant’s counsel to petition the court for the fast-track
\

program cannot be said to have prejudiced Movant as the decision could not have changed the
outcome of Movant’s sentencing. See Faubion, 19 F.3d at 228 (citing United States v. Kinsey,
917 F.2d 181,183 (5th Cir' 1990)) (stating that defendants must show that the results would have
been different if not for counsel’s errors). Movant’s claim that counsel was ineffective by failing
to argue for the application of a fast-track program is without merit in this matter as the Movant
was never eligible for the program within the Southern District of Texas.

,

entry after prior removal in violation of 8 U.S.C. §1326; the next three pertain to authorization of fast-track program
for those individuals charged with other crimes as set forth in each respective memorandum. Attachment 1 is
Memorandum from Deputy Attorney General (“DAG”), dated Jan. 31 2012; Attachment 2 is Memorandum from
DAG, dated Mar. 31,2012, authorizing “Early Disposition Programs for 2012” for non-§1326 violations; Attachment
3 is Memorandum from DAG, dated May 1, 2014, extending “Fast-Track” Programs for non-§1326 violations; and
Attachment 4 is Memorandum from DAG, dated July 31, 2015, extending “Fast-Track” Programs for non-§1326
violations. (Civ. Dkt. 12, Attach. 1, at 22-24; Attach. 2, at 25-27; Attach. 3, at 28-30; and Attach. 4, at 31-33.)

7

Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 8 of 9

CONCLUSION
Recommended Disposition
After a careful review of the record and relevant law, the undersigned recommends that
Respondent’s Motion for Summary Judgment (Civ. Dkt. No. 12) be GRANTED and Movant’s §
2255 motion (Civ. Dkt. No. 1) be DENIED. It is further recommended that Movant’s § 2255
motion (Civ. Dkt. No. 1) be DISMISSED with prejudice, and the case be closed.
Certificate ofAppealability
It is recommended that the District Court deny a certificate of appealability. An appeal
may not be taken to the court of appeals from a final order in a habeas corpus proceeding “unless
a circuit justice or judge issues a certificate of appealability.” 28 U.S.C. § 2253(c)(1)(A). The
Rules Governing Section 2255 Proceedings instruct that the District Court “must issue or deny a
certificate of appealability when it enters a final order adverse to the applicant.” R. Gov. Sec.
2255 Cases 11. Because the undersigned recommends the dismissal of Movant’s § 2255 action,
it must be addressed whether Movant is entitled to a certificate of appealability (“COA”).
A movant is entitled to a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “The COA determination under §
2253(c) requires an overview of the claims in the habeas petition and a general assessment of their
merits.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). For claims denied on their merits,
“[t]he petitioner must demonstrate that reasonable jurists would find the district court’s assessment
for the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,484 (2000);
see also United States v. Jones, 287 F.3d 325,329 (5th Cir. 2002) (applying the Slack standard to
a COA determination in the context of § 2255 proceeding). An applicant may also satisfy this
standard by showing that “jurists could conclude the issues presented are adequate to deserve

8

}
Case 7:14-cr-01871 Document 83 Filed in TXSD on 11/16/18 Page 9 of 9

encouragement to proceed further.” Miller-El, 537 U.S. at 327; see also Jones, 287 F.3d at 329.
For claims that a district court rejects solely on procedural grounds, the prisoner must show both
that “jurists of reason would find it debatable whether the petition states a valid claim of denial of
a constitutional right and that jurists of reasons would find it debatable whether the district court
was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Movant fails to meet this threshold. Counsel was not ineffective for failing to. request a
fast-track program when such a program in the Southern District of Texas was not authorized for
those convicted of drug trafficking crimes such as the Movant. Therefore, it is recommended that
the District Court deny a COA.
Accordingly, Movant is not entitled to a COA.
Notice to the Parties
Within 14 days after being served a copy of this report, a party may serve and file specific,
written objections to the proposed recommendations. 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P.
72(b). Failure to file written objections to the proposed findings and recommendations contained
in this report within 14 days after service shall bar an aggrieved party from de novo review by the
District Court of the proposed findings and recommendations and from appellate review of factual
findings accepted or adopted by the District Court, except on grounds of plain error or manifest
injustice.
The Clerk shall send a copy of this Order to Movant and counsel for Respondent.1
DONE at McAllen, Texas, thisy^? day of

2018.

Juan F. Alanis
United States Magistrate Judge v

9

A

